Department of Health and Human Services

          OFFICE OF
     INSPECTOR GENERAL




           The Physician’s Role
        in Medicare Home Health
                  2001




                   JANET REHNQUIST
                  Inspector General

                     December 2001
                     OEI-02-00-00620
                           OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's New York regional office prepared this report under the direction of John I. Molnar,
Regional Inspector General, and Renee C. Dunn, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                         HEADQUARTERS

Ellen Vinkey, Project Leader
                  Tricia Davis, Program Specialist

Judy Kellis, Lead Analyst
                     Brian Ritchie, Technical Support

Christi Macrina
                               Scott Horning

Thomas Zimmermann
                             Linda Moscoe

                                               Barbara Tedesco, Mathematical Statistician



.



     To obtain copies of this report, please call the New York Regional Office at (212) 264-2000.
            Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei
                         EXECUTIVE SUMMARY

PURPOSE
         To describe physicians’ practices in prescribing, certifying, and monitoring Medicare home
         health services within the context of the Centers for Medicare and Medicaid Services’
         expectations.

BACKGROUND
         The home health care environment has undergone a great deal of change within the last
         few years. This inspection is part of a larger body of work that the Office of Inspector
         General is conducting on Medicare home health services. For this study, we mailed
         questionnaires to 600 physicians who signed Medicare home health plans of care in the
         last 6 months of 2000. We supplemented these data with survey data from Medicare
         beneficiaries and home health agencies, as well as the Centers for Medicare and Medicaid
         Services (CMS) claims data.

FINDINGS

Physicians Play a Key Role in Medicare’s Home Health Benefit

         Virtually all physicians (97 percent) report that they have some familiarity with most
         patients for whom they sign a home health plan of care. Most physicians also say they are
         involved in identifying the specific home health services their patients need, with over half
         reporting that they work jointly with home health agencies or hospital staff to make these
         determinations. Eighty-six percent of physicians report that they see their patients at least
         once a month while they are receiving home health services.

Physicians Report a Lack of Knowledge of Medicare Home Health Rules

         Physicians report that they are not clear on key Medicare rules. For example, 38 percent
         of physicians report that they are unclear on the Medicare criteria for “homebound.” Half
         say that they are not clear on the definition to apply when certifying medical necessity.

Physicians Believe Not All Medicare Expectations of Them Can be Met

         We found that most physicians know what CMS expects of them but many believe they
         are not able to provide this level of oversight of Medicare home health patients. For
         example, while 83 percent of physicians believe that Medicare expects them to ensure that
         only medically necessary services are on the plan of care, only 48 percent say they are able
         to ensure that this is the case. There is also a large difference between the percentage of
         physicians that believe Medicare expects them to ensure that home health


The Physician’s Role in Medicare Home Health 2001   i                                OEI-02-00-00620
         patients are homebound, and the number that believe they are able to do this (59 versus 26
         percent). In addition to reporting concerns about their ability to meet CMS’ oversight
         expectations, some physicians report being confused about the degree to which they can
         be held liable for inappropriate home health certifications.

Over Half of Medicare Physicians Are Unaware of New Home Health Prospective
Payment System

         About 60 percent of physicians report they have never heard of the Medicare home health
         prospective payment system, which went into effect October 1, 2000.

Effectiveness of Physician Payments is Questionable

         Beginning in 1995, physicians were permitted to bill for care plan oversight in an effort to
         encourage additional physician involvement. Recent claims data indicate that physicians
         bill for care plan oversight at a rate of less than three percent of total home health claims.
         Regarding newly available payments for certification and re-certification of the plan of
         care, data for the first quarter of 2001 reveal that physicians billed for these payments at a
         rate of less than five percent. These low billing rates indicate that, at present, there is little
         willingness on the part of physicians to pursue these payments. Physicians report that
         there is too much paperwork involved in submitting these claims, and the payment amount
         is not high enough to make it worthwhile.


RECOMMENDATIONS

         Physicians are currently playing an important role in initiating, certifying and monitoring
         the care for Medicare home health beneficiaries. However, they are doing so despite
         limited knowledge of key Medicare rules as well as discomfort with CMS’ expectations.
         At present, the availability of reimbursement for their oversight role does not seem to be
         having a significant impact on physicians who care for Medicare home health patients.
         In order to address physician concerns and improve the Medicare home health services,
         we recommend the following.

         <	        The Centers for Medicare & Medicaid Services should review relevant
                   informational materials available to Medicare physicians to determine areas where
                   improvements and clarifications can be made.

         <	        The Centers for Medicare & Medicaid Services should establish a workgroup
                   composed of physicians, home health representatives, and departmental designees,
                   or utilize an existing workgroup such as the Practicing Physicians Advisory
                   Council or the Physician Regulatory Issues Team to discuss issues related to
                   Medicare home health care. We offer the following issues for consideration by the
                   workgroup.



The Physician’s Role in Medicare Home Health 2001    ii                                  OEI-02-00-00620
                      -	 The need for more effective and widespread home health education for
                          physicians;

                      -	 Further clarification of payment and coverage policies, including the home
                         health definitions for “homebound” and “medically necessary;”

                      - The simplification of home health certification forms;

                      -	 An analysis of the costs and benefits associated with the promotion of
                          physician home visits;

                      -	 The possibility of requiring home health agencies to employ medical
                         directors;

                      -	 The consideration of whether CMS oversight expectations of physicians can
                          be realistically met; and,

                      -	 The creation of a system enabling patients to appeal if they feel they are
                          receiving inadequate care.


COMMENTS

         We received comments on our draft report from several physician and home health
         organizations: The American Academy of Home Care Physicians, The American College
         of Physicians-American Society of Internal Medicine, The American Medical Association,
         and The National Association for Home Care. These organizations generally agreed with
         our findings and recommendations. They also provided specific suggestions on how to
         increase physician understanding of the Medicare home health benefit and to promote
         further physician involvement with their home care patients. (We include these
         organizations' comments in full in Appendix E.)

         We also received comments on our draft report from the Centers for Medicare &
         Medicaid Services (CMS). The CMS concurred with our findings and also made a
         number of technical comments that we incorporated into the report when appropriate. In
         addition, CMS had two methodological concerns. First, they expressed concern that our
         sampling time frame did not include a long enough period of time when the prospective
         payment system (PPS) was in effect. We acknowledge that our work occurred in the early
         stages of PPS implementation. However, it is important to note that physician knowledge
         of PPS is only one issue among several that we sought to address. Second, CMS stated
         that our sample may be biased against respondents who have had enough experience
         signing plans of care. We were also concerned about this. Therefore, in our
         methodology we included only physicians who signed two or more home health plans of
         care during the 6 month sampling time frame.




The Physician’s Role in Medicare Home Health 2001     iii                                OEI-02-00-00620
                     TABLE                        OF             CONTENTS

                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



FINDINGS

          Physicians Play a Key Role . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Physicians Report a Lack of Knowledge . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Physicians Believe Not All Expectations Can be Met . . . . . . . . . . . . . . . . . . . . . . . . . . 13


          Over Half of Medicare Physicians Are Unaware of PPS . . . . . . . . . . . . . . . . . . . . . . . . 15


          Effectiveness of Physician Payments is Questionable . . . . . . . . . . . . . . . . . . . . . . . . . . 15



RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



APPENDICES 


A: Selected List of Recent OIG Home Health Inspections . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


B: Chi-Square Test For Urban/Rural Differences . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20


C: Confidence Intervals For Key Findings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


D: Physician Non-Respondent Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


E: Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





The Physician’s Role in Medicare Home Health 2001                  iv                                              OEI-02-00-00620
                                    INTRODUCTION

PURPOSE
         To describe physicians’ practices in prescribing, certifying, and monitoring Medicare home
         health services within the context of the Centers for Medicare and Medicaid Services’
         expectations.


BACKGROUND

         The home health care environment has undergone a great deal of change within the last
         few years. This inspection is part of a current series of four Office of Inspector General
         (OIG) inspections about Medicare home health care. Medicare Beneficiary Experiences
         With Home Health Care OEI-02-00-00560, looks at the experiences of Medicare
         beneficiaries in accessing and receiving home health care. Access to Home Health Care
         After Hospital Discharge 2001 OEI-02-01-00180, assesses the effects of the prospective
         payment system on access to home health care for Medicare beneficiaries who are
         discharged from the hospital. Medicare Home Health Care- Beneficiaries From The
         Community OEI-02-01-00070, looks at access to home health for beneficiaries who have
         not recently been in the hospital. See Appendix A for a list of other recent OIG reports
         relating to home health care.

         This inspection also follows up on a June 1995 study on the physician role in providing
         home health care. In that earlier report, the OIG found that physicians were most
         involved in referring patients, approving plans of care, and monitoring the progress of
         complex patients. However, both home health agencies and physicians identified obstacles
         to effective physician involvement.

Medicare Home Health Care

         Home health services consist of skilled nursing, therapy (physical, occupational and
         speech), and certain related services, including social work and aide services, all furnished
         in a patient’s home. Services are typically provided by registered nurses, therapists, social
         workers, or home health aides employed by or under contract to a home health agency
         (HHA). These agencies can be free-standing or hospital-based and are classified as not-
         for-profit, proprietary, or governmental.

         Medicare will pay for home health care only if it is reasonable and necessary for the
         treatment of the patient’s illness or injury. In order to be eligible for services, a beneficiary
         must be homebound, be under the care of a physician who has established a plan of care,
         and need at least one of the following intermittent and not full time skilled


The Physician’s Role in Medicare Home Health 2001   1                                   OEI-02-00-00620
         services: skilled nursing care, physical therapy, speech therapy, and continued
         occupational therapy at the start of care. (Occupational therapy alone does not constitute
         a skilled need. However, after care has begun and other skilled services are discontinued,
         continued occupational therapy is a skilled need.) Home health aide visits are covered to
         the extent that the aide services support the skilled need of the beneficiary. There are no
         specific limits on the number of visits or length of coverage and no co-payments or
         deductibles apply.

Trends in Medicare Home Health Care

         After a history of increases, Medicare home health expenditures have dropped since 1998.
         Between Fiscal Years 1991 and 1997, Medicare home health care annual expenditures
         rose from $4.7 billion to $17.6 billion. This was due to an increase in both the number of
         beneficiaries receiving home health services and the number of visits they received. In
         1998, however, spending for home health services began to drop and in Fiscal Year 1999
         was about $8.7 billion. Furthermore, the average home health length of stay has declined
         from 98 days in 1997 to 58 days in 1999, and the number of beneficiaries served has
         decreased by 22 percent1.

         A number of factors have contributed to the recent decrease in Medicare home health
         spending. These include interim payment limits created by the Balanced Budget Act of
         1997, as well as several initiatives that were implemented in response to concerns about
         fraud and abuse. Specifically, the Health Insurance Portability and Accountability Act
         substantially increased financial support to the OIG’s fraud control efforts.

The Physician’s Role in Home Health Care

         Physician as the “Gatekeeper”

         The Centers for Medicare and Medicaid Services (CMS) require that a physician sign
         every patient’s individual plan of care certifying that the patient is homebound and the
         planned services are medically necessary in order for the home health agency to be
         reimbursed for Medicare covered services.2 This role that CMS is relying on physicians to
         fulfill is sometimes thought of as a “gatekeeper.” Historically, many physicians have
         focused their attention on the determination of their patients’ medical needs and have been
         less comfortable with the “gatekeeper” role.

         Physician liability fraud alert

         In January 1999, the OIG released a special fraud alert directed to the physician
         community that addressed their role in certifying Medicare home health services for their
         patients. The Fraud Alert was issued “because physicians may not appreciate the legal

         1
          Comparisons are between the first 2 months of 1997 and the analogous period in 1999.
         2
           Medicare home health regulations, 42 CFR 484.18, require physicians to establish, sign, and periodically review a
plan of care specifying all services the patient is to receive. The plan of care must be re-certified every 60 days.


The Physician’s Role in Medicare Home Health 2001             2                                          OEI-02-00-00620
         and programmatic significance of certifications they make in connection with the ordering
         of home health care for Medicare beneficiaries.” It stresses the significance of their
         responsibility as the party who certifies the medical necessity for home health care, signs
         off on the level of services needed, and certifies that the patient is homebound. The Fraud
         Alert also emphasizes the need for the certifying physician to have firsthand knowledge of
         the relevant patient.

         The Fraud Alert notes that “a physician is not personally liable for erroneous claims due to
         mistakes, inadvertence, or simple negligence,” but that “knowingly signing a false or
         misleading certification or signing with reckless disregard for the truth can lead to serious
         criminal, civil, and administrative penalties.” However, in our pre-inspection discussions
         with physicians, it was apparent that there is a significant amount of confusion surrounding
         the physician liability issue. Many physicians were aware of the fraud alert and mistakenly
         thought that it held them personally liable in all cases. Some physician groups and home
         health agencies indicate that physicians have become less willing to sign off on Medicare
         plans of care as a result of the Fraud Alert. The OIG recently issued the final version of
         the Compliance Program Guidance for Individual and Small Group Physician Practices. A
         major focus of this guidance is on the difference between “erroneous claims” and
         “fraudulent claims.”

         The physician’s role under the prospective payment system

         Recent changes in the way Medicare reimburses home health agencies have affected the
         physician role in home health care envisioned by CMS. The Balanced Budget Act of 1997
         required that the existing cost-based home health payment system be replaced with a
         prospective payment system (PPS) of fixed, predetermined rates. Prior to the
         implementation of PPS on October 1, 2000, home health agencies were reimbursed based
         on what it costs to provide services to Medicare beneficiaries. As a result, there was a
         financial incentive for HHAs to provide more services than might be necessary. As
         indicated earlier, under this system the physician was seen as the “gatekeeper,” responsible
         for ensuring that patients only received services that were medically necessary. Under the
         new prospective payment system, financial incentives have changed somewhat, and
         physicians are now being asked to fulfill a dual role. The CMS is still relying on physicians
         to ensure that Medicare beneficiaries are homebound and have a need for medical services.
         However, because agencies are now paid fixed, pre-determined rates, there may be an
         incentive for some home health agencies to limit the services provided within a given
         episode of care. As a result, physicians are now also being called upon to ensure that
         patients get appropriate care, as well as a sufficient amount of care.

         In a recent directive sent to Medicare Carriers, CMS provided guidance on this new
         physician role and directed the Carriers to alert physicians about their new responsibilities
         under the prospective payment system. This program memorandum indicated that
         “physician responsibility in the PPS environment is to be the determiner of the patient’s
         health care needs and advocate for the services required to meet those needs.” The
         physician’s role is no longer simply that of a “gatekeeper” for the duration of home care



The Physician’s Role in Medicare Home Health 2001   3                                 OEI-02-00-00620
         services. Instead, under PPS the physician role has become one of “gatekeeper” at the
         onset, ensuring that the patient is eligible for Medicare home health services, then,
         subsequent to the start of home health, physicians are expected to ensure that the patient is
         not short-changed with regard to the services that Medicare is paying the agency to
         provide. It is worth noting that there are no specific guidelines as to what level of service
         a given type of Medicare beneficiary should receive. The physician is expected to make
         this determination as the patient’s advocate.

Prospective Payment System Reimbursement

         Under the new prospective payment system, reimbursement is based on each 60-day
         episode of care. For initial episodes, the home health agency receives 60 percent of its
         estimated payment for services up front when it submits a Request for Anticipated
         Payment. Although a physician signed plan of care is not required prior to the submission
         of the Request for Anticipated Payment, home health agencies must receive and
         substantiate a physician order before this request can be made. This can be done through
         one of three alternative processes set out in recently revised CMS regulations. One
         alternative is for agencies to record the physician’s verbal order in the patient’s plan of
         care, including a physician description of the patient’s condition and the services to be
         provided. This verbal order must be signed and dated by the agency’s registered nurse or
         therapist and a copy of the plan of care must be immediately submitted to the physician. A
         second alternative is for the physician to write out a prescription for services, again
         including the patient’s condition and the services to be provided. Finally, agencies can
         follow the previously established procedure and have the physician sign the plan of care
         prior to submitting the Request for Anticipated Payment. Under the new procedure, a
         signed plan of care is required by the end of the 60-day episode in order for the HHA to
         receive the remaining 40 percent payment.

Physician Payments for Oversight and Certification of the Plan of Care

         Payment for care plan oversight

         In an effort to encourage additional physician involvement, beginning in 1995, CMS
         regulations have provided for physician reimbursement for care plan oversight. Physicians
         (as well as nurse practitioners, physician assistants, and clinical nurse specialists) may bill
         Medicare for this under CPT code 99375.3 On January 1, 2001, the national average
         payment rose from $99 to $122.




         3
           Since 1995, the code used to bill for home health care plan oversight has changed a number of times for a variety of
reasons. As of January 1, 2001, the code is temporary HCPCS code G0181.


The Physician’s Role in Medicare Home Health 2001             4                                           OEI-02-00-00620
         In order to bill for care plan oversight, the following conditions must be met:

         1.	       the beneficiary must require complex or multi-disciplinary care modalities requiring
                   ongoing physician involvement in the patient's plan of care;

         2.	       the care plan oversight services should be furnished during the period in which the
                   beneficiary is receiving Medicare covered home health care services;

         3.	       the physician who bills for care plan oversight must be the same physician who
                   signed the home health plan of care;

         4.	       the physician must furnish at least 30 minutes of care plan oversight within the
                   calendar month for which payment is claimed; and,

         5.	       no other physician can be paid for care plan oversight for the same patient during
                   the relevant month.

         The CMS representatives indicate that the number of physicians claiming care plan
         oversight reimbursement has been below projections. Some believe this indicates that the
         availability of this reimbursement has not increased physician involvement in the way it
         was hoped. This has led to ongoing discussions about other approaches that might be
         effective in increasing physician involvement.

         New payment for certification of plan of care

         Another change related to physicians with home health patients involves new payments for
         physician certification and re-certification of patients’ plans of care. As of January 1,
         2001, physicians are able to bill for these services under HCPCS code G0180, for
         certification, and HCPCS code G0179, for re-certification. The final rule establishing
         these payments indicates that the “certification (and re-certification) services being paid
         for include creation and review of a plan of care for a patient and verification that the
         home health agency initially complies with the physician’s plan of care.” In addition, these
         payments include “the physician’s work in reviewing data collected in the home health
         agency’s patient assessment, including Outcome and Assessment Information Set (OASIS)
         data.” CMS does not require physicians to review the OASIS, but if they do, this work is
         included in the payment for certification or re-certification.

         The CMS introduced these new payments in hopes of increasing physician involvement,
         particularly given the implementation of the prospective payment system. Physicians will
         be able to claim these payments in addition to reimbursement claimed for care plan
         oversight. Unlike care plan oversight, nurse practitioners, physician assistants and clinical
         nurse specialists cannot bill for certification or re-certification of the home health plan of
         care. Physician payments for these services will be, on average, $73 and $61, respectively.




The Physician’s Role in Medicare Home Health 2001    5                                 OEI-02-00-00620
Physician Group Established by the Centers for Medicare and Medicaid Services

         The Physician Regulatory Issues Team was created by CMS in 1998 to help make
         Medicare rules clear and reasonable for physicians. The Team provides physicians with a
         forum to discuss how Medicare regulations and other program rules and guidelines affect
         their practices and their patients. One of its main goals is to reduce the regulatory burden
         on physicians.

Prior OIG Work on Physician Involvement in Home Health Care

         Two previous OIG studies have examined physician involvement in Medicare home health
         care. As indicated earlier, The Physician’s Role in Home Health Care, OEI-02-94-00170,
         surveyed both home health agencies and the physicians who referred patients to them.
         The study provided a description of physicians’ involvement in home health at the time. It
         found that physicians were most involved in referring patients, approving plans of care,
         and monitoring the progress of complex patients. They appear to have been less involved
         in coordinating services, visiting patients at home, and participating in interdisciplinary
         conferences. Physicians and agencies both cited problems in communicating with each
         other and difficulties in getting the plan of care signed. Some agencies felt physicians
         lacked adequate education in home health care and an understanding of the home health
         benefit.

         Another OIG report issued in 1996, Results of the Operation Restore Trust Audit of
         Medicare Home Health Services in California, Illinois, New York, and Texas, A-04-96-
         02121, found that 40 percent of services in a sub-sample of the home health claims
         reviewed did not meet Medicare reimbursement requirements. These inappropriate claims
         included services not reasonable and necessary, services to beneficiaries who were not
         homebound, services that did not have a valid physician’s order, and services that did not
         have supporting documentation. The study found the majority of physicians relied on
         home health agencies to assess their patients’ needs and to make the homebound
         determination. The audit report suggested that inadequate physician involvement was a
         leading cause of the unallowable services identified in the audit. In a follow-up audit
         conducted in 1998, Review of Medicare Home Health Services in California, Illinois,
         New York, and Texas, A-04-99-01194, the OIG found that the error rate for inappropriate
         home health services dropped to 19 percent; however, the error rate associated with
         payments for these services was higher at 30 percent.

Related Work

         The American Medical Association (AMA) released a report in 1993 discussing two
         potential conflicts of interest physicians may come across in referring patients to home
         health care. In some instances, home health agencies may offer payment to physicians for
         their services or referrals. The AMA advises physicians not to accept these payments, as
         they may compromise physician objectivity in choosing the most appropriate home health
         agency for their patients’ needs. Physicians may also come across situations where they
         may want to refer patients to agencies in which they have an ownership interest. The

The Physician’s Role in Medicare Home Health 2001   6                                OEI-02-00-00620
         AMA advises against this practice of self-referral unless the physician provides direct care
         under the agency or there is a community need for the agency and no alternative financing
         is available. In 1998, the AMA published a report entitled Medical Management of the
         Home Care Patient: Guidelines for Physicians. It provides an overview of the
         physician’s role in home health care and discusses related Medicare policies and fraudulent
         practices.

         A 1998 report released by the Massachusetts Medical Society, entitled Physician’s
         Practice Patterns, Attitudes Towards, and Perceptions of Home Health Care, found that
         physicians in their sample were less than moderately involved in the selection of the home
         health agency. These physicians also reported a low level of knowledge of home care
         payments and regulations. At the same time, the physicians acknowledged the importance
         of improving physician education in these areas. Very few physicians reported submitting
         care plan oversight charges. The majority were not aware they could charge for oversight
         services. Only 39 percent of sample respondents reported making home visits. The study
         suggested that “while respondents are not satisfied with their current level of oversight,
         and would like to see a greater level of control, they don’t wish to undertake this
         themselves.”


METHODOLOGY

         We obtained data for this study from a number of different sources. These included the
         following: a physician mail survey; a mail survey of home health care beneficiaries; a
         telephone survey of home health agencies; and, CMS claims data.

         We conducted our mail surveys subsequent to the implementation of the home health
         prospective payment system which went into effect on October 1, 2000. In addition, our
         physician survey was conducted after the implementation of the calendar year 2001
         physician payment fee schedule, which authorizes payments for certification and re-
         certification of the home health plan of care.

Sample Selection

         Using the CMS National Claims History File, we identified all Medicare beneficiary HHA
         claims for services begun during the last 6 months of calendar year 20004. Based on CMS
         data, we identified all physicians who signed the home health plan of care associated with
         the claim. To assure we had physicians that refer beneficiaries to home health with some
         frequency, we eliminated physicians who signed home health plans of care for only one
         beneficiary during the six month period. After eliminating duplicate physicians and invalid
         provider numbers, we then selected a simple random sample of 600 physicians.




         4
          This sample was pulled during the third week of February 2001.

The Physician’s Role in Medicare Home Health 2001      7                            OEI-02-00-00620
Physician Mail Survey

         A self-administered mail questionnaire was sent to all 600 sample physicians. Our
         questions focused primarily on the experiences of physicians when ordering and
         overseeing Medicare home health services; obstacles they face in performing this function;
         whether the availability of additional Medicare payments provides sufficient incentive for
         physicians to be more involved in the provision of home health services to their patients;
         and, how, if at all, the physician role has changed since the implementation of the home
         health prospective payment system. In order to maximize our response rate, we sent a
         letter prior to the questionnaire, reminder postcards after the questionnaire, and a second
         mailing of questionnaires to non-respondents. We received responses back from 349
         physicians, giving us an overall response rate of 58 percent.

Beneficiary Mail Survey

         For this study, we included a limited number of questions as part of a larger self-
         administered mail questionnaire being sent by the OIG to a separate sample of Medicare
         home health beneficiaries. This questionnaire was sent to 700 beneficiaries with a usable
         address. Our questions focused primarily on beneficiary experiences with their physicians
         at the time home health care was ordered, as well as during their home health episode.
         The overall response rate for that survey was 74 percent.

Home Health Agency Survey

         We conducted telephone interviews with a random sample of 30 home health agencies.
         Our questions focused on their perception of the physician’s role in home health care.
         Due to the small sample size we consider these data descriptive in nature and do not
         project to the universe based on this data.

Analysis of Claims

         We used the five percent sample of Part B claims from CMS’ National Claims History File
         to determine how often physicians bill for care plan oversight. Our analysis involved
         looking at the percentage of HHA claims that had a physician care plan oversight bill
         associated with them in 1999 (as a proportion of all home health claims in that year). We
         also analyzed data from prior years to identify whether this percentage is increasing,
         decreasing, or remaining constant. Similarly, we identified the percentage of physicians
         who submitted claims for the certification or re-certification of care plans in the first few
         months of 2001, the year these payments became available.

         In addition, we used National Claims Data to determine how familiar physicians are with
         their patients prior to signing their plans of care, as well as how much they remain
         involved with patients after they start receiving home health care. To do this, we
         identified all beneficiaries who started home health services in the last 6 months of 2000.
         We analyzed the number of patient visits billed to Medicare by the physician who signed
         the plan of care in the 12 month period preceding their signature on the care plan.

The Physician’s Role in Medicare Home Health 2001   8                                OEI-02-00-00620
         Similarly, we analyzed physicians’ involvement once home health services began by
         looking at the number of patient visits billed by the physician for the duration of the
         patient’s stay in home health, up to 3 months5.

Limitations

         Our sample selection methodology focused on physicians who signed multiple plans of
         care in an effort to ensure that respondents had sufficient experience to answer our
         questions. Therefore, our results are projectable to physicians who sign more than one
         plan of care in a given 6 month period.

         In addition, for all analyses where CMS claims data are utilized, data for more recent
         periods will be somewhat less complete than prior period data.




         5
        Please note that not all beneficiaries included in this analysis received home health care for the entire 3
month period.

The Physician’s Role in Medicare Home Health 2001        9                                       OEI-02-00-00620
                                              FINDINGS

Physicians play a key role in Medicare’s home health benefit
A majority of physicians have had contact with patients prior to signing the plan
of care

         Virtually all physicians in our sample (97 percent) report that they have some familiarity
         with most of the patients for whom they sign a home health plan of care. A majority of
         Medicare patients (82 percent) concur with physicians, reporting that they know the
         doctor who ordered their home health. Recent claims data are consistent with the
         reported experiences of physicians and patients. These data show that 85 percent of all
         beneficiaries saw the physician who signed their plan of care at least once in the 12 months
         prior to the start of their home health care.6 At present, there is no requirement that
         physicians see patients before signing their care plan.

Physicians help determine and initiate home health services

         Most physicians are involved in identifying the specific home health services their patients
         need. Over half report working jointly with home health agencies or hospital staff to
         determine the services their patients will receive. Another quarter say they do this
         themselves, while 15 percent leave the determination of what a patient needs to the home
         health agency.

         Many physicians are also involved in finalizing the initial plan of care. Just under a third
         report they sometimes make changes to the plan of care. The majority of those who make
         changes do so when the home health agencies include different services than they think are
         appropriate. They also make changes to plans of care when they believe there are too
         many or too few services listed, or when a change in medication or patient needs occurs.

         Recent changes in Medicare guidelines allow home health agencies to begin services
         immediately after receiving a physician verbal order or a signed prescription. Previously,
         agencies were required to wait for physicians to sign the plan of care to commence
         services. About half of physicians report they currently initiate services by providing a
         verbal order describing the services needed with just under a quarter saying they are
         providing a prescription. Only 21 percent say they sign the plan of care to initiate
         services7. The 30 home health agencies we spoke with also report that most physicians
         are now providing a verbal order to initiate home health services. It should be noted that
         all physicians are still required to sign the finalized care plans for their Medicare patients.


         6
          Note that any additional claims that were submitted by physicians after 2/28/01 are not reflected in this
analysis, possibly understating this percentage.
         7
          Nine percent report that they initiate services in some “other way.”

The Physician’s Role in Medicare Home Health 2001        10                                       OEI-02-00-00620
Physicians remain involved with their home health patients

         Almost all physicians (86 percent) report that they see their patients at least once a month
         while they are receiving home health services. These visits include both office and home
         visits. Claims data generally support the reported experiences of physicians. Claims data
         indicate that during the 3 month period following the start of home health care, at least 60
         percent of beneficiaries received services from the physician who signed their plan of
         care.8

         Additionally, physicians report they spend some time communicating with home health
         agencies and reviewing their patients’ records. About a third say they spend at least half
         an hour a month doing this for each patient, while 60 percent spend less than half an hour.
         Only 7 percent report that they do not spend any time communicating with home health
         agencies or reviewing their patients’ records.

         Overall, physicians are satisfied with the home health care their patients are receiving.
         Fifty-four percent report they are somewhat satisfied with their patients’ care, while
         another 37 percent report they are very satisfied.

Few urban and rural differences

         Because there is some concern that the experiences of home health patients differ by
         geographical region, we looked for differences in opinions and reported practices of the
         physicians in our sample that practice in rural versus urban areas. We found only two
         statistically significant differences in our key findings. First, more rural physicians report
         making the initial determination that Medicare home health services are needed, while
         more urban physicians report that someone other than the physician makes this
         determination. Secondly, more rural physicians report they would prefer that the
         oversight of home health patients be done by physicians, while more urban physicians
         report they would prefer the oversight role be performed by someone else. (See Appendix
         B for more information.)


Physicians report a lack of knowledge of Medicare home
health rules
         As indicated earlier, the Centers for Medicare and Medicaid Services require that all
         Medicare home health patients be certified by a physician as homebound to be eligible for
         home health services. However, as indicated in the chart on the next page, 38 percent of
         physicians report that they are unclear on the Medicare criteria for “homebound.” In
         addition, just under half of all Medicare physicians report that they are not clear on the


         8
          Note that additional claims that were submitted by physicians after 2/28/01 are not reflected in this
analysis possibly understating this percentage and not all beneficiaries received home health services for the entire
3 month period.

The Physician’s Role in Medicare Home Health 2001        11                                       OEI-02-00-00620
         definition they are expected to apply when certifying that planned home health services are
         medically necessary. Although Medicare does not explicitly require physicians to certify
         that a given patient has a “skilled need” or that a given medical service is, in fact, covered
         by Medicare, in practice there is a need for physicians to have knowledge of Medicare
         rules in these areas. However, a full 80 percent report that they are unclear on what
         services are covered by Medicare and 50 percent do not know what Medicare considers a
         “skilled need.”




* Note: percentages do not total 100 in each case due to non-response     Source: OEI physician survey, 2001.



Physicians rely on several sources for home health information

         We asked physicians what guidance on home health, if any, had been most helpful to them.
         It is worth noting that the majority of physicians do not obtain their information from
         CMS. The top three answers they gave were: guidance from hospital staff such as
         discharge planners (76 percent), guidance provided by home health agencies (55 percent),
         and guidance from physician publications that cover home health issues periodically (16
         percent). At present, only 11 percent of physicians report relying on program memoranda
         issued to physicians by Medicare Carriers. The number of doctors that report getting
         information from the Medicare website or Medicare conferences is also low, 1 percent and
         5 percent respectively. When we asked physicians what suggestions they have for future
         initiatives to provide them with guidance about Medicare home health rules, just over 20
         percent volunteered that they would like simplified information and more concise
         literature.



The Physician’s Role in Medicare Home Health 2001            12                         OEI-02-00-00620
Physicians believe not all Medicare expectations of them can
be met
         Under the home health prospective payment system, the Centers for Medicare and
         Medicaid Services are relying on physicians to fulfill two distinct expectations. First,
         physicians are required to certify that Medicare beneficiaries are homebound and have a
         medical need for services. Secondly, because agencies are now paid fixed rates, possibly
         providing an incentive for some home health agencies to limit services, physicians are
         being relied upon to help ensure that patients get all of the care for which they are eligible.
          A recent CMS program memorandum indicated that “physician responsibility in the PPS
         environment is to be the determiner of the patient’s health care needs and advocate for the
         services required to meet those needs.”

Most physicians know what CMS expects of them but many believe they are not
able to provide this oversight

         We asked physicians a number of questions about the functions Medicare expects them to
         perform with regard to home health patients. In addition, we asked them whether they
         believe they are able to perform these functions. There is wide discrepancy between what
         physicians believe they are expected to do and what they believe they are able to do. For
         example, while 83 percent of physicians believe that Medicare expects them to ensure that
         only medically necessary services are on the plan of care, only 48 percent believe they are
         able to ensure that this is the case. There is also a large difference between the percentage
         of physicians that believe Medicare expects them to ensure that home health patients are
         homebound and the number that believe that they are able to ensure this (59 versus 26
         percent). Chart B, below, provides additional information on the differences that exist
         between what physicians believe Medicare expects them to do and what they believe they
         are able to do.




                                                                        Source: OEI physician survey, 2001


The Physician’s Role in Medicare Home Health 2001   13                                   OEI-02-00-00620
         Interestingly, the 30 home health agencies we spoke with were more likely to say that
         physicians can fulfill CMS expectations than physicians were. Returning to the issue of
         whether physicians are able to ensure that only medically necessary services are on the
         plan of care, 24 of the 30 home health agencies we spoke to say “yes.” As indicated
         above, only 48 percent of physicians say they are able to do this. Sixteen of the home
         health agencies report that physicians can ensure patients are homebound, while only 26
         percent of physicians report that this is the case.

Concerns over physician liability

         In addition to reporting concerns about their ability to meet CMS’ oversight expectations,
         some physicians are confused about the degree to which they can be held liable for
         inappropriate certifications. One quarter of physicians report that they have heard about
         the 1999 Fraud Alert issued by the Office of Inspector General that addresses physician
         liability for home health certification. Of physicians aware of this directive, 24 percent
         volunteer concerns about being held personally liable for well intentioned certifications of
         their patients’ home health care. Another 10 percent report that they have been made
         nervous by the Fraud Alert.

         In addition to finding concerns among physicians who are aware of the Fraud Alert, we
         found a large degree of misunderstanding on the part of all physicians. Only 25 percent
         correctly report that physicians can be held liable for inappropriate certifications only
         when they knowingly sign false or misleading certifications. The balance of physicians
         report incorrectly that they can be held liable for any inappropriate certifications they sign
         (41 percent) or that they have no clear understanding of what their liability may be (27
         percent).

Physicians divided on who should perform the oversight role

         Despite the fact that physicians report reservations about their ability to fulfill the role
         Medicare expects of them, there is no consensus on the issue of who should perform this
         function. Forty-one percent of physicians report that they would like to see independent
         case managers, an unspecified person, home health agency medical directors, or
         independent ombudsman perform this function9. However, 56 percent report that the
         oversight of home health patients should not be done by someone other than the physician.




         9
          Three percent of physicians did not respond to this question on the survey instrument.

The Physician’s Role in Medicare Home Health 2001       14                                         OEI-02-00-00620
Over half of Medicare physicians are unaware of new home
health prospective payment system
         As indicated earlier, under the prospective payment system, physicians are being relied
         upon to ensure that patients get all the care for which they are eligible. We asked
         physicians whether or not they were aware of the new prospective payment system.
         About 60 percent of physicians report they have never heard of the Medicare home health
         prospective payment system (PPS), which went into effect October 1, 2000. Physicians
         who have heard of it, report having learned about it through physician publications, home
         health agencies, and hospital staff.

         We asked physicians who are aware of PPS if the implementation of the prospective
         payment system has changed their interactions with home health agencies or Medicare
         beneficiaries. Seventy-three percent report that it has not affected their interactions with
         agencies or beneficiaries.



Effectiveness of physician payments is questionable
         Beginning in 1995, physicians were permitted to bill for care plan oversight. Reasons for
         the implementation of this payment include a desire on the part of the Centers for
         Medicare and Medicaid Services to recognize work physicians were performing, as well as
         to encourage additional physician involvement. Recent claims data indicate that physicians
         bill for care plan oversight at a rate of less than 3 percent of total home health claims.
         This low billing rate indicates that, at present, there is little willingness on the part of
         physicians to pursue these payments. Historic data show that these billings have been
         consistently low since they became available in 1995.

         Over two-thirds of all physicians report that they either do not know what constitutes
         home health care plan oversight or are not aware that they can bill for it. Of those
         physicians that report being aware that they can submit these bills, 82 percent say they
         choose not to. Physicians report that there is too much paperwork involved in submitting
         these claims and the payment amount is not high enough to make it worthwhile. In
         addition, many claim that it is unclear what Medicare requirements physicians must meet
         in order to qualify for reimbursement. In fact, a full one-third of the small number of
         physicians who are submitting bills to Medicare for home health care plan oversight report
         being unclear about requirements.

         A similar story is unfolding with regard to newly available payments for certification and
         re-certification of the plan of care. We analyzed early data on physician billings for these
         payments. Data for the first quarter of 2001 reveal that physicians billed for these
         payments at a rate of less than 3 percent each.10 Ninety percent of physicians report being

         10
           Based on physician claims received by April 30, 2001. Denominator is total number of Medicare home
health claims submitted for the same period.

The Physician’s Role in Medicare Home Health 2001    15                                    OEI-02-00-00620
         unclear on the requirements associated with certification/re-certification payments at the
         present time. Interestingly, despite a low initial billing rate and confusion about billing
         requirements, one-third of physicians report that they plan to submit bills to Medicare for
         these payments in the future.

         We asked home health agencies if they believe the amount of time physicians spend with
         their home health patients has increased, decreased or remained the same since CMS’
         1995 implementation of the care plan oversight payment. Fifteen agencies say it has
         remained the same; nine say the amount of time physicians spend with their home health
         patients has increased; one agency reports that the amount of time has decreased; and, five
         say they “don’t know.”

Physicians report desire for simplified rules and cite obstacles to more effective
physician involvement

         As indicated earlier, just over 20 percent of physicians volunteered that they would like to
         see simplified Medicare rules related to their role in certifying home health and more
         concise guidance on the subject. When asked what obstacles they see to increased
         physician involvement in monitoring Medicare home health patients, physicians cite
         burdensome paperwork, a lack of time, and limited Medicare reimbursement.




The Physician’s Role in Medicare Home Health 2001   16                               OEI-02-00-00620
                           RECOMMENDATIONS

         Physicians are currently playing an important role in initiating, certifying and monitoring
         the care for Medicare home health beneficiaries. However, they are doing so despite
         limited knowledge of key Medicare rules as well as discomfort with CMS’ expectations.
         At present, the availability of reimbursement for their oversight role does not seem to be
         having a significant impact on physicians who care for Medicare home health patients.
         In order to address physician concerns and improve the Medicare home health services,
         we recommend the following.

         <	        The Centers for Medicare & Medicaid Services should review relevant
                   informational materials available to Medicare physicians to determine areas where
                   improvements and clarifications can be made.

         <	        The Centers for Medicare & Medicaid Services should establish a workgroup
                   composed of physicians, home health representatives, and departmental designees,
                   or utilize an existing workgroup such as the Practicing Physicians Advisory
                   Council or the Physician Regulatory Issues Team to discuss issues related to
                   Medicare home health care. We offer the following issues for consideration by the
                   workgroup.

                      -	 The need for more effective and widespread home health education for
                          physicians;

                      -	 Further clarification of payment and coverage policies, including the home
                         health definitions for “homebound” and “medically necessary;”

                      - The simplification of home health certification forms;

                      -	 An analysis of the costs and benefits associated with the promotion of
                          physician home visits;

                      -	 The possibility of requiring home health agencies to employ medical
                         directors;

                      -	 The consideration of whether CMS oversight expectations of physicians can
                          be realistically met; and,

                      -	 The creation of a system enabling patients to appeal if they feel they are
                          receiving inadequate care.




The Physician’s Role in Medicare Home Health 2001    17                                  OEI-02-00-00620
COMMENTS

         We received comments on our draft report from several physician and home health
         organizations: The American Academy of Home Care Physicians, The American College
         of Physicians-American Society of Internal Medicine, The American Medical Association,
         and The National Association for Home Care. These organizations generally agreed with
         our findings and recommendations. They also provided specific suggestions on how to
         increase physician understanding of the Medicare home health benefit and to promote
         further physician involvement with their home care patients. (We include these
         organizations' comments in full in Appendix E.)

         We also received comments on our draft report from the Centers for Medicare &
         Medicaid Services (CMS). The CMS concurred with our findings and also made a
         number of technical comments that we incorporated into the report when appropriate. In
         addition, CMS had two methodological concerns. First, they expressed concern that our
         sampling time frame did not include a long enough period of time when the prospective
         payment system (PPS) was in effect. We acknowledge that our work occurred in the early
         stages of PPS implementation. However, it is important to note that physician knowledge
         of PPS is only one issue among several that we sought to address. Second, CMS stated
         that our sample may be biased against respondents who have had enough experience
         signing plans of care. We were also concerned about this. Therefore, in our
         methodology we included only physicians who signed two or more home health plans of
         care during the 6 month sampling time frame.




The Physician’s Role in Medicare Home Health 2001   18                          OEI-02-00-00620
                                                                           APPENDIX A


          Selected List of Recent Office of Inspector General
                       Home Health Inspections

Office of Inspector General, US Department of Health and Human Services, “The Physician’s
Role in Home Health Care,” OEI-02-94-00170, June 1995.

Office of Inspector General, US Department of Health and Human Services, “Medicare
Beneficiary Access to Home Health Agencies,” OEI-02-99-00530, October 1999.

Office of Inspector General, US Department of Health and Human Services, “Medicare
Beneficiary Access to Home Health Agencies 2000,” OEI-02-00-00320, September 2000.

Office of Inspector General, US Department of Health and Human Services, “Adequacy of Home
Health Services: Hospital Re-Admissions and Emergency Room Visits,” OEI-02-99-00531,
September 2000.

Office of Inspector General, US Department of Health and Human Services, “ Medicare Home
Health Services: Survey and Certification Deficiencies,” OEI-02-99-00532, September 2000.




The Physician’s Role in Medicare Home Health 2001   19                       OEI-02-00-00620
                                                                                        APPENDIX B



                 Chi-Square Test for Urban/Rural Differences

We computed Chi-square values for differences in physicians’ geographical place of work. All
variables were analyzed at the 95 percent confidence level. As shown in the table below, only two
variables showed statistically significant differences.



                                 Chi-Square Values for Testing Significance
                                       of Geographic Place of Work


                                                    Degrees of
           Variable                 Percents         Freedom     Chi-Square   Probability     Significant?

 Determination that patient       Rural Urban
 needs home health:                                     1*           4.45         .03               Y
      Physician                     71%     57%
      Non-physician                 29%     43%

 Preference of person              Rural Urban
 responsible for oversight:                             1*           4.00         .05               Y
      Physician                     68%     55%
      Non-physician                 32%     46%

 Familiarity with patients                              3           1.65          .65               N
 prior to home health

 Time spent each month                                  1*          2.48          .12               N
 with a typical home health
 patient

 Awareness of care plan                                 3           0.35          .95               N
 oversight payment

 Knowledge of home health                               1*          1.97          .06               N
 PPS

 Ability to ensure patient is                           3           5.56          .13               N
 homebound


         * When testing for urban rural differences, response categories were combined in some
         instances in order to better understand any differences.




The Physician’s Role in Medicare Home Health 2001           20                              OEI-02-00-00620
                                                                                             APPENDIX C



                      Confidence Intervals For Key Findings *
We calculated confidence intervals for key findings for physicians. The point estimate and 95
percent confidence interval are given for each of the following:

                                                                                Point
                         Key Findings                               N          Estimate

 Virtually all physicians report that they have some
 familiarity with the patients for whom they sign a home           343            97%              +/- 1.8
 health plan of care.

 Over half report working jointly with home health                 343            55%              +/- 5.3
 agencies or hospital staff to determine services for their
 patients.

 Almost all physicians see their patients at least once a          343            86%              +/- 3.7
 month while they are receiving home health services.

 Thirty-eight percent of physicians report that they are           343            38%              +/- 5.1
 unclear on the Medicare criteria for "homebound."

 Eighty-three percent of physicians believe that Medicare
 expects them to ensure that only medically necessary              343            83%              +/- 4.0
 services are on the plan of care.

 Only 48 percent of physicians believe they are able to            343            48%              +/- 5.3
 ensure that only medically necessary services are on the
 plan of care.

 Fifty-nine percent of physicians believe Medicare expects         343            59%              +/- 5.2
 them to ensure that home health patients are homebound.

 Twenty-six percent of physicians believe they are able to         343            26%              +/- 4.6
 ensure that home health patients are homebound.

 Of the physicians who are aware of the Fraud Alert, 24
 percent volunteer concerns about being held personally            84             24%              +/- 9.1
 liable for well intentioned certifications of their patients’
 home health care.

 Twenty-five percent of physicians correctly report that
 physicians can be held liable for inappropriate                  343             25%              +/- 4.6
 certifications only when they knowingly sign false or
 misleading certifications.

* Note: The N values above include item non-respondents. Item non-respondents were included in the denominator
used to calculate point estimates. These item non-respondents do not include those survey respondents who were
instructed to skip the question at issue. In the majority of the findings above, item non-respondents numbered less
than 10.


The Physician’s Role in Medicare Home Health 2001           21                                  OEI-02-00-00620
                                                                                    APPENDIX D


                          Physician Non-Respondent Analysis

We tested for the presence of any non-response bias in our sample. For this analysis, a physician
who did not complete and return the survey is a non-respondent. We dropped six physicians from
the overall sample who told us they did not sign plans of care.

To test for non-response bias in our sample, we analyzed two variables which might influence
whether an individual would respond to the survey or that might affect his or her responses:
geographical place of work and the number of home health plans of care signed by the physicians
within a given 6 month period.

For the purpose of this analysis, geographical place of work was divided into urban and rural. For
the number of home health plans of care signed within a given 6 month period, we divided the
physicians into three categories:

  1. Physicians with an average of less than one plan of care signed a month,
  2. Physicians with an average of one but less than two plans of care signed a month, and
  3. Physicians with an average of two or more plans of care signed a month.

These categorical variables were tested using Chi-square with the appropriate degrees of freedom.
In order for the results to be statistically significant at the 95 percent confidence interval, the Chi-
square value must be higher than 3.84 with 1 degree of freedom.

The results of this analysis are presented in Tables A and B. The Chi-square values given in the
tables provide a test of difference between the distribution of respondents and of non-respondents
for the variable of interest. Also provided in the tables are the response rates by the different
values of the variables.

Tables A and B show no statistically significant differences between respondents and non-
respondents for either geographical place of work or the number of home health plans of care
signed by the physicians.




The Physician’s Role in Medicare Home Health 2001   22                                OEI-02-00-00620
                                                   Table A
                                            Geographical Place of Work*


                            Respondents             Non-Respondents             Total           Percent

 Urban                         252 (46%)                193 (35%)                445               81%

 Rural                           70 (13%)                37    (7%)              107               19%

 Total                         322                      230                      552               58%

 Chi-square= 2.74
 Degrees of freedom= 1
      * The overall sample size is only 552 because there were no matches on the urban/rural indicator for 42
                                                     physicians.




                                           Table B
                         Average Home Health Plans of Care Signed a Month


                            Respondents             Non-Respondents             Total

  < 1 /month                    206 (35%)             139 (23%)                  345               58%

  1-2 /month                     83 (14%)              66 (11%)                  149               25%

  > 2 /month                     54 (9%)               46     (8%)               100               17%

 Total                          343                   251                        594             58%

 Chi-square= 1.38
 Degrees of freedom= 2




The Physician’s Role in Medicare Home Health 2001        23                                    OEI-02-00-00620
                                                                              APPENDIX E




                                                    Comments

In this appendix, we present in full the comments from the Centers for Medicare and Medicaid
Services, the American Academy of Home Care Physicians, the American College of
Physicians-American Society of Internal Medicine, the American Medical Association, and the
National Association for Home Care.




The Physician’s Role in Medicare Home Health 2001      24                       OEI-02-00-00620
